No. 20-444
____________
IN THE
SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA,

Petitioner,
v.
MICHAEL ANDREW GARY,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
MOTION FOR APPOINTMENT OF COUNSEL

Kimberly Harvey Albro
OFFICE OF THE FEDERAL
DEFENDER
1901 Assembly Street, Ste. 200
Columbia, SC 29201
Kendall Turner
O’MELVENY & MYERS LLP
1625 I Street NW
Washington, DC 20006

JEFFREY L. FISHER

Counsel of Record

Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL SUPREME
COURT LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

MOTION FOR APPOINTMENT OF COUNSEL
Respondent Michael Andrew Gary hereby moves, pursuant to Supreme
Court Rule 39.7, to appoint Jeffrey L. Fisher of Stanford Law School’s
Supreme Court Litigation Clinic as his counsel of record. In support of this
motion, respondent supplies the following information:
1.

This Court granted certiorari and respondent’s motion to proceed in

forma pauperis in this case on January 8, 2021.
2.

Mr. Fisher is well qualified to undertake this representation.

He

serves as the Co-Director of Stanford Law School’s Supreme Court Litigation
Clinic. He has argued in this Court numerous times and has been involved in
dozens of additional cases. Several of those cases have involved questions of
criminal procedure, the subject of this case.
3.

Mr. Fisher and Stanford Law School’s Supreme Court Litigation

Clinic have the resources necessary to undertake the representation. The
Clinic employs three instructors (including Mr. Fisher), all of whom regularly
litigate in this Court. The Clinic also has student assistance and the full
resources of Stanford Law School at hand. The Clinic will serve as co-counsel
with the Federal Public Defender’s Office for the District of South Carolina,
which represented respondent in the Fourth Circuit and during the certiorari
stage in this Court, and with the law firm O’Melveny & Myers, where Mr.
Fisher serves as special counsel.
4.

Mr. Fisher has been a member in good standing of the Washington

State Bar since 2000 and of the California Bar since 2008. He is also a
member of this Court’s bar.

1

CONCLUSION
For the foregoing reasons, respondent respectfully requests that this
Court appoint Mr. Jeffrey L. Fisher as his counsel of record in this case.
Respectfully submitted,
Kimberly Harvey Albro
OFFICE OF THE FEDERAL
DEFENDER
1901 Assembly Street, Ste. 200
Columbia, SC 29201

JEFFREY L. FISHER

Counsel of Record

Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL SUPREME
COURT LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

Kendall Turner
O’MELVENY & MYERS LLP
1625 I Street NW
Washington, DC 20006
Dated: January 12, 2021

2

